                                                                 Issue Date
                                                                   January 11, 2008
                                                                 Audit Report Number
                                                                   2008-AT-1005




TO:         Maria R. Ortiz, Director of Community Planning and Development, Miami Field
            Office, 4DD



FROM:       James D. McKay, Regional Inspector General for Audit, 4AGA

SUBJECT: The City of Fort Lauderdale, Florida, Did Not Properly Administer Its
         Community Development Block Grant Program

                                   HIGHLIGHTS

 What We Audited and Why

             We audited the Community Development Block Grant (CDBG) program
             administered by the City of Fort Lauderdale, Florida (City). The objective of the
             audit was to determine whether the City administered its CDBG program in
             accordance with applicable U.S. Department of Housing and Urban Development
             (HUD) requirements. We selected the City for review because the HUD Miami
             Office of Community Planning and Development ranked it as high risk in its
             fiscal years 2005 and 2006 risk assessments. In addition, a previous HUD on-site
             monitoring review identified concerns with the City’s administration of the
             CDBG program.

 What We Found


             The City did not administer its CDBG program in accordance with applicable
             HUD requirements. It did not provide supporting documentation or did not
             maintain adequate supporting documentation to demonstrate that CDBG activities
             met national objectives. As a result, it had no assurance that more than $5 million



Table of Contents
          in expended CDBG funds achieved the intended national objective or met
          program requirements.

          The City did not accurately report CDBG financial information in accordance
          with HUD requirements. The City’s CDBG financial information in its Financial
          Accounting Management Information System did not agree with financial
          information reported to HUD. The City also failed to report CDBG program
          income to HUD for one project. As a result, there is no assurance that the City
          reported accurate CDBG financial information to HUD in accordance with HUD
          regulations.

          The City improperly allocated 100 percent of its vehicle expenditures to the
          CDBG program without adequate supporting documentation demonstrating the
          use of the vehicles. As a result, there is no assurance that $98,967 in vehicle
          expenses allocated to the CDBG program was accurate and CDBG program
          related.

What We Recommend


          We recommend that the Director of the Miami Office of Community Planning
          and Development require the City to (1) provide documentation to support that
          CDBG program requirements were followed and national objectives were met for
          the 20 public facility activities and 11 public service activities or reimburse its
          program $2.3 million from nonfederal funds; (2) provide an action plan for
          development of land parcels to include how national objectives will be achieved
          and if not developed within 90 days, reimburse its program the greater of $2.6
          million or the fair market value of the property from nonfederal funds; (3)
          maintain supporting documentation that CDBG program requirements were
          followed and national objectives were met for the 20 public facility activities and
          11 public service activities according to 24 CFR 570.506 to allow $722,377 in
          unused funds to be put to better use by ensuring that the City effectively uses
          these funds for the intended clientele; and (4) update, implement, and enforce
          written monitoring policies and procedures to ensure effective performance and
          compliance with federal regulations for meeting CDBG national objectives.

          The Director should also require the City to (1) reconcile its Financial Accounting
          Management Information System with the HUD Integrated Disbursement and
          Information System and notify HUD of the adjustments and (2) report rental and
          interest income for one project as CDBG program income.

          In addition, the Director should require the City to reimburse the program $98,967
          from nonfederal funds, since there is no assurance that vehicle use was CDBG
          program related.



 Table of Contents
                                           2
            For each recommendation without a management decision, please respond and
            provide status reports in accordance with HUD Handbook 2000.06, REV-3.
            Please furnish us copies of any correspondence or directives issued because of the
            audit.

 Auditee’s Response


            We discussed the findings with the City during the audit. We provided a copy of
            the draft report to City officials on November 6, 2007, for their comments and
            discussed the report with the officials at the exit conference on November 20,
            2007. The City provided its written comments to our draft report on November
            29, 2007. In its response, the City generally agreed with finding 1 and 2, but did
            not agree with finding 3.

            The complete text of the City’s response, along with our evaluation of the
            response, can be found in appendix B of this report. Attachments to the City’s
            comments were not included in the report, but are available for review upon
            request.




Table of Contents

                                             3
                            TABLE OF CONTENTS

Background and Objectives                                                           5

Results of Audit
        Finding 1: The City Did Not Demonstrate Compliance in Meeting National
                   Objectives                                                       6
        Finding 2: The City Did Not Accurately Report CDBG Financial Information
                   to HUD                                                           12
        Finding 3: The City Improperly Allocated Vehicle Expenditures to the CDBG
                   Program                                                          16

Scope and Methodology                                                               18

Internal Controls                                                                   20

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use                21
   B. Auditee Comments and OIG’s Evaluation                                         22
   C. Criteria                                                                      43
   D. Schedule of Questioned Costs and Funds to Be Put To Better Use for Public
      Facility Activities                                                           46
   E. Schedule of Questioned Costs and Funds to Be Put To Better Use for Public
      Service Activities                                                            47




                                            4
                      BACKGROUND AND OBJECTIVES

 The City of Fort Lauderdale, Florida (City), receives annual Community Development Block
 Grant (CDBG) program funds from the U.S. Department of Housing and Urban Development
 (HUD). HUD awards annual grants to entitlement cities to develop viable urban communities by
 providing decent housing and a suitable living environment and by expanding economic
 opportunities, principally for low- and moderate-income persons. An activity that receives
 CDBG funds must meet one of three national objectives:

    •   Benefit low- and moderate-income families,
    •   Aid in the prevention or elimination of slums or blight, or
    •   Meet community development needs having a particular urgency because existing
        conditions pose a serious and immediate threat to the health or welfare of the community
        and when other financial resources are not available.

 The City Housing and Community Development Division administers the CDBG program. This
 division administers programs intended to improve the character of existing neighborhoods and
 to provide quality housing for all of its citizens. Some of the services provided include
 administration, management, and coordination of CDBG activities, rental rehabilitation
 programs, the Emergency Shelter Grants Program, and other federal and state programs. The
 division is located at 1409 Northwest 6th Street, Fort Lauderdale, Florida.

 The HUD Integrated Disbursement and Information System reported that the City expended
 CDBG funds of more than $6.3 million for program years 2004 (October 1, 2004, to September
 30, 2005) and 2005 (October 1, 2005, to September 30, 2006).

 We selected the City for review because the HUD Miami Office of Community Planning and
 Development ranked it as high risk in its fiscal years 2005 and 2006 risk assessments. In
 addition, a previous HUD on-site monitoring review identified concerns with the City’s
 administration of the CDBG program.

 Our audit objective was to determine whether the City administered its CDBG program in
 accordance with applicable HUD requirements.




Table of Contents

                                                5
                                 RESULTS OF AUDIT

Finding 1: The City Did Not Demonstrate Compliance in Meeting
           National Objectives
The City did not demonstrate compliance with HUD requirements in meeting national
objectives. It did not provide supporting documentation or did not maintain adequate supporting
documentation to demonstrate that public facility, public service, and land acquisition activities
met national objectives. This condition occurred because the City lacked effective management
controls over its CDBG activities and disregarded HUD requirements. As a result, it had no
assurance that more than $5 million in expended CDBG funds achieved the intended national
objective or met program requirements.



 Supporting Documentation
 Lacking or Inadequate

               Regulations at 24 of CFR [Code of Federal Regulations] 570.200(a) state that
               CDBG-funded activities must meet one of the national objectives: benefit low-
               and moderate-income families, prevent or eliminate slums or blight, or meet
               urgent community development needs. Regulations at 24 CFR 570.506 state that
               records must be maintained to demonstrate that each activity undertaken meets
               one of the national objective criteria.

               The City did not provide supporting documentation or did not maintain adequate
               supporting documentation to demonstrate that public facility, public service, and
               land acquisition activities met national objectives.

               Public facilities – Regulations at 24 CFR 570.506(b)(2) require that for each
               activity determined to benefit low- and moderate-income families (area benefit),
               the grantee must provide documentation showing (1) the boundaries of the service
               area; (2) the income characteristics of families and unrelated individuals in the
               service area; and (3) if the percentage of low- and moderate-income persons in the
               service area is less than 51 percent, data showing that the area qualifies.

               Regulations at 24 CFR 570.506(b)(3) require that for each activity determined to
               benefit low- and moderate-income families (limited clientele), the grantee must
               provide documentation showing (1) that the activity is designed for and used by a
               segment of the population presumed by HUD to be principally low and moderate
               income, (2) the nature of the services and how they were used predominantly by
               low- and moderate-income persons, or (3) the size and annual income of the
               family of each person receiving the benefit.



Table of Contents
                                                6
            The City informed us that 29 public facility activities were awarded more than
            $4.3 million in CDBG funds during the period October 1, 2000, through May 31,
            2007. The City indicated that these public facility activities included senior
            services and infrastructure projects such as street improvements, parks, and
            recreational facilities. The national objective established for these 29 activities
            was to benefit low- and moderate-income families (area benefit or limited
            clientele).

            The City was able to demonstrate compliance in meeting national objectives for
            nine activities. However, it lacked supporting documentation for 20 activities. It
            did not provide us with any supporting documentation for the 20 activities despite
            many requests for the records. As a result, it was unable to confirm whether a
            national objective was met for 20 public facility activities provided more than $1
            million in CDBG funds. The remaining $620,158 in unspent CDBG funds for
            these 20 activities could be used effectively if the City can support that the
            activities met a national objective.

            Public services – Regulations at 24 CFR 570.506(b)(8) require that for each
            activity determined to prevent or eliminate slums or blight, the grantee must
            address one or more of the conditions which qualified an area as a slum or
            blighted area, the boundaries of the area, and a description of the conditions
            which qualified the area at the time of its designation in sufficient detail to
            demonstrate how the area met the qualifying criteria.

            The City informed us that nine public service activities administered by City
            departments and two activities administered by subrecipients were awarded more
            than $1.3 million in CDBG funds during the period October 1, 2000, through May
            31, 2007. The City indicated that these public service activities provided youth
            and general services. The national objectives established for these 11 activities
            were to benefit low- and moderate-income families (limited clientele) and prevent
            or eliminate slums or blight.

            The City lacked supporting documentation or provided inadequate supporting
            documentation for the 11 public service activities. It lacked supporting
            documentation for two activities administered by City departments. The City did
            not provide us with any supporting documentation for these two activities because
            it could not locate the records. In addition, it provided inadequate supporting
            documentation for seven activities administered by City departments and two
            subrecipient activities.

            The following two examples illustrate the lack of or inadequate supporting
            documentation.

               •    The national objective established for one activity was to prevent or
                    eliminate slums or blight in a designated area. The purpose of this activity
                    was to reduce graffiti through community involvement and educational


Table of Contents
                                              7
                          initiatives. The application in the file explained the geographical
                          boundaries of the area in which this activity was to provide services.
                          However, we did not find a description in sufficient detail of the
                          conditions that qualified the area at the time of its designation to
                          demonstrate how the area met the qualifying criteria. In addition, we did
                          not find supporting documentation indicating that the subrecipient
                          provided educational awareness to its citizens or other services.

                     •    The national objective established for one activity was to benefit low- and
                          moderate-income families (limited clientele). The purpose of this activity
                          was to provide training and instruction to children participating in water
                          safety. The file did not contain documentation to support that the children
                          being served were from low- and moderate-income families. In addition,
                          we did not find attendance sheets in the file to support that the eligible
                          children participated in the activity.

                 In addition, the City (1) failed to monitor eight activities administered by City
                 departments and (2) inadequately monitored one activity administered by a City
                 department and the two subrecipient activities. For the three activities
                 inadequately monitored, monitoring reports did not provide sufficient evidence
                 that supported the reviewer’s conclusions. Also, the City failed to execute
                 agreements for the nine activities administered by City departments. Without an
                 executed agreement, it is difficult for the City to monitor specific tasks that need
                 to be accomplished to meet the national objective.

                 Although the City conducted monitoring of an activity administered by a City
                 department, 1 City officials explained that they generally did not conduct
                 monitoring of public service activities administered by City departments. The
                 City’s policies and procedures require monitoring of subrecipients but not
                 activities administered by City departments.

                 As a result, we were unable to confirm whether a national objective was met for
                 11 public service activities that were provided more than $1.2 million. The
                 remaining $102,219 in unspent CDBG funds for these 11 activities could be used
                 effectively if the City can support that the intended clientele benefit from CDBG
                 funds. In addition, it needs to execute agreements with all its subrecipients to
                 ensure that the objectives of the agreements are met through monitoring.

                 Land acquisition – Regulations at 24 CFR 570.208(d) require that if the assisted
                 activity is acquisition of real property, a preliminary determination of whether the
                 activity addresses a national objective may be based on the planned use of the
                 property after acquisition. Regulations at 24 CFR 570.501(b) provide that the
                 grantee is responsible for determining the adequacy of performance under


1
 A monitoring review was conducted because technical assistance was requested. The staff from this City
department were new and did not know how to proceed with the activity.


Table of Contents                                      8
         subercipient agreements and for taking appropriate action when performance
         problems arise.

         The City provided us with a list of 76 land parcels acquired with approximately
         $4 million in CDBG funds. It directly acquired 68 parcels totaling $3.5 million,
         while subrecipients acquired the remaining eight parcels totaling $521,533. We
         selected five parcels directly acquired by the City totaling more than $1.1 million
         and two parcels acquired by subrecipients totaling $286,077 for further review.
         The table below summarizes pertinent information on the seven parcels.

          No.   Purchase      Parcel ID/property ID        Purchase   National objective
                  date                                       price
           1    1989-92          5042 03 24 0030             $171,302 Benefit
                                                                      low/moderate-
                                                                      income housing;
                                                                      aid in prevention or
                                                                      elimination of
                                                                      slums or blight;
                                                                      low/moderate-
                                                                      income jobs
           2    1989-92         5042 03 24 0030                81,584 Same
           3    1989-92         5042 03 24 0040                96,584 Same
           4    1989-92         5042 03 24 0030                66,099 Same
           5    2002-06      5042 04 32 0040, 50, 60          697,455 Benefit
                                                                      low/moderate-
                                                                      income housing
                             Total City acquisitions       $1,113,024
           6    June 27,            9234077130                145,007 Low/moderate-
                2000                                                  income area benefit
           7    July 17,            203012140                 141,070 Low/moderate-
                2000                                                  income area benefit
                             Total subrecipient              $286,077
                             acquisitions
                             Total for seven               $1,399,101
                             acquisitions

         The City did not meet the national objectives for these seven parcels because it
         did not complete projects within a reasonable period and did not have an action
         plan or conduct monitoring to determine how the acquisitions would be
         developed.

         For example, one project included the acquisition of four parcels in 1989 totaling
         $415,569. The City indicated that the project was to create commercial
         development and housing projects. At the end of the audit period, the City was
         still negotiating with a developer to determine whether the housing project would
         be homeownership or rental. In addition to these four parcels, the City acquired


Table of Contents                         9
             31 parcels for this project. As a result, we consider all 35 parcels totaling more
             than $1.3 million to be unsupported costs because the national objectives were not
             met and the intended clientele did not benefit from the expenditures of CDBG
             funds.

             In addition, two projects included the acquisition of two parcels in 2000 totaling
             $286,077. At the end of the audit period, the land was vacant. The City did not
             require an action plan from the subrecipient describing the proposed development,
             development schedule, or disposition according to HUD regulations and the
             executed contract with the subrecipient. The contract stipulated that the term of
             performance was 60 months from the date of execution of the contract. This
             stipulation expired May 2006. The City did not ensure (1) that these projects
             were carried out in a timely manner because it did not monitor the subrecipient for
             compliance with the terms of the contract and (2) that resources were efficiently
             managed and objectives were achieved in a timely manner. City officials
             informed us that staff shortages precluded them from monitoring this
             subrecipient. In addition to these two projects in the contract, the subrecipient
             received CDBG funds for seven other projects. As a result, we consider all nine
             projects totaling $641,680 to be unsupported costs because the national objectives
             were not met and the intended clientele did not benefit from the expenditures of
             CDBG funds.

             Some of the parcels we examined are part of a larger project or contract that was
             funded with CDBG funds. As a result, we questioned the total $2.6 million
             acquisition cost that includes all parcels included in the project and contract
             because the City has not completed projects within a reasonable period of time
             and did not document whether the planned developments would meet a CDBG
             program objective.


Conclusion


             The City did not demonstrate compliance with HUD requirements in meeting
             national objectives. It did not provide supporting documentation or did not
             maintain adequate supporting documentation to demonstrate that public facility,
             public service, and land acquisition activities met national objectives and program
             requirements. Also, it lacked effective management controls over its CDBG
             activities and disregarded HUD requirements. Specifically, the City (1) lacked
             policies and procedures to ensure effective performance and compliance with
             federal regulations for meeting national objectives, (2) lacked executed
             agreements with other City departments, (3) did not properly monitor other City
             departments and subrecipients, (4) allowed projects to remain open for an
             unreasonable period without an action plan to describe how national objectives
             would be met, and (5) did not maintain or lacked supporting documentation to
             meet national objectives. As a result, the City had no assurance that 20 public
             facility activities totaling more than $1 million, 11 public service activities

Table of Contents                            10
          totaling more than $1.2 million, and more than $2.6 million in land acquisitions
          achieved the intended national objective or met program requirements. See
          appendixes D and E for a listing of the public facility and public service activities
          that did not demonstrate compliance with national objectives. The remaining
          $722,377 in unspent funds from October 1, 2000, through May 31, 2007, for 20
          public facility activities and 11 public service activities could be put to better use
          if the City effectively uses these funds for the intended clientele to benefit from
          CDBG funds.

Recommendations



          We recommend that the Director of the Miami Office of Community Planning
          and Development require the City to

          1A. Provide supporting documentation that CDBG program requirements were
              followed and national objectives were met for the 20 public facility
              activities and 11 public service activities according to 24 CFR 570.506 or
              reimburse its program $2,339,060 from nonfederal funds.

          1B. Provide an action plan for development of the land parcels to include how
              national objectives will be achieved. If the action plan is not developed
              within 90 days, the City should reimburse its program the greater of
              $2,676,103 or the fair market value of the property from nonfederal funds.

          1C. Execute written agreements with City departments to formalize requirements
              such as the scope of work and timeframe to accomplish the work.

          1D. Maintain supporting documentation that CDBG program requirements were
              followed and national objectives were met for the 20 public facility
              activities and 11 public service activities according to 24 CFR 570.506 to
              allow $722,377 in unused funds to be put to better use by ensuring that the
              City effectively uses these funds for the intended clientele.

          1E. Update, implement, and enforce written monitoring policies and procedures
              to ensure effective performance and compliance with federal regulations for
              meeting CDBG national objectives.

          1F. Ensure that all land acquisition files contain sufficient documentation to fully
              support the basis for the purchase of the land.




Table of Contents

                                            11
Finding 2: The City Did Not Accurately Report CDBG Financial
           Information to HUD
The City did not accurately report CDBG financial information in accordance with HUD
requirements. The City’s CDBG financial information in its Financial Accounting Management
Information System (FAMIS) did not agree with financial information reported in HUD’s
Integrated Disbursement and Information System (IDIS). The City also failed to report CDBG
program income to HUD for one project. This condition occurred because the City lacked (1)
adequate training for both financial information systems, (2) adequate supervision, (3)
knowledge of HUD regulations for financial reporting, and (4) sufficient staffing. As a result,
there is no assurance that the City reported accurate CDBG financial information to HUD in
accordance with HUD regulations.


    Inaccurate Financial
    Information Reported
    between HUD and the City


                 Regulations at 24 CFR 85.20(b)(1) state that the financial management systems of
                 the grantees and subgrantees must meet the following standards: accurate, current,
                 and complete disclosure of the financial results of financially assisted activities must
                 be made in accordance with the financial reporting requirements of the grant or
                 subgrant.

                 For the fiscal year ending September 30, 2005, the single audit report of the City
                 disclosed that an annual CDBG financial report submitted to HUD did not agree
                 with the amounts reported as expended on the schedule of expenditures or the
                 general ledger in FAMIS.

                 The City reports CDBG financial information in FAMIS and IDIS. We compared
                 an annual report generated by IDIS for fiscal years 2004 and 2005 2 against CDBG
                 financial information in FAMIS and found discrepancies between the systems.

                 Specific examples of inaccurate financial information include the following:

                 Unexpended CDBG program fund balances – Unexpended CDBG program
                 fund balances reported to HUD and the City did not agree. The City did not
                 report in IDIS the unexpended fund balance from program year 2003-2004 to
                 program year 2004-2005. This error contributed to a negative unexpended fund
                 balance for program year 2004-2005 reported in IDIS. In addition, the City
                 inaccurately reported in IDIS the unexpended fund balance from program year
                 2004-2005 to program year 2005-2006. It failed to provide us with accurate

2
 IDIS generates reports that are part of the grantee consolidated annual performance and evaluation report that is
submitted to HUD annually. We compared the financial summaries report (PR 26) with the information in FAMIS.


Table of Contents                                       12
          financial information from FAMIS for unexpended CDBG program fund balances
          for program years 2004 and 2005.

           CDBG                   IDIS       FAMIS              IDIS     FAMIS
           resources            2004-2005   2004-2005        2005-2006 2005-2006
           Unexpended                  0.00    Not           $ 2,336,925   Not
           funds at end of                   provided                    provided
           previous
           program year
           (beginning
           balance)


           Total               ($ 1,158,102)      Not        $ 2,644,049       Not
           unexpended                           provided                     provided
           funds at end of
           current program
           year (ending
           balance)



          City officials acknowledged submitting incorrect unexpended CDBG program
          fund balances to HUD with the intention of rectifying them later. They added that
          this financial information was not corrected because of the continued lack of staff
          and inadequate training for both systems. In addition, City officials explained that
          their accounting system did not provide accurate unexpended CDBG program
          fund balances because of the way in which CDBG accounts were set up in
          FAMIS. The City needs to reconcile unexpended CDBG program fund balances
          between FAMIS and IDIS.

          Disbursements – CDBG planning and administration disbursements reported to
          HUD and the City did not agree. The City understated disbursements reported to
          HUD by $40,998 in fiscal year 2004 and $78,163 in fiscal year 2005. According
          to the City, discrepancies were due to late withdrawals and adjustments made
          after the annual report was submitted to HUD. Therefore, the amounts reported to
          HUD were inaccurate, and the City did not comply with HUD reporting
          requirements.

           CDBG resources            IDIS        FAMIS       IDIS    FAMIS
                                  2004-2005     2004-2005 2005-2006 2005-2006
           Disbursements for       $ 417,847     $ 458,835 $ 507,343 $ 585,506
           planning &
           administration



Table of Contents
                                           13
            In addition, the City reported other CDBG disbursements to HUD in IDIS but
            failed to provide us with accurate financial information from FAMIS for program
            years 2004 and 2005. According to the City, various internal, external, and state
            audits of its operations and limited staff contributed to the delay in providing this
            information.

             CDBG resources          IDIS     FAMIS       IDIS     FAMIS
                                   2004-2005 2004-2005 2005-2006 2005-2006
              Disbursements       $ 3,362,201   Not    $ 2,074,663   Not
             other than section               provided             provided
              108 repayments
             & planning/admin




    CDBG Program Income
    Not Reported to HUD


            Regulations at 24 CFR 570.504 require that receipts and expenditures of program
            income be recorded as part of the financial transactions of the grant program and be
            subject to all applicable requirements governing the use of CDBG funds.

            HUD had instructed the City to appropriately account for rental income as CDBG
            program income involving a post office project. We followed up on this matter.

            The City disbursed more than $4.8 million in CDBG funds to acquire land and
            construct a post office. It indicated that the post office was making annual lease
            payments of $170,407 for the use of the property. These payments to the City
            represent CDBG program income. However, the City failed to report CDBG
            program income to HUD.

            The City generated more than $1.5 million in rental income from January 1998 to
            April 2007. However, the City only reported $510,729 in rental income to HUD.
            City officials said the remaining amount was not reported to HUD because they did
            not know how to report more than $1 million from prior years and $14,201 from
            fiscal year 2005 had not been received from the post office.

            The City also failed to report interest on the rental income as CDBG program
            income to HUD. City officials said they did not know that interest was earned on
            the rental income. Based on limited CDBG financial information provided by the
            City, we computed interest on rental income of approximately $16,651 as of fiscal
            year 2003. Since more recent CDBG financial information was not provided by the
            City, we were unable to compute an accurate amount of interest on the rental income
            to be reported as CDBG program income to HUD.


Table of Contents
                                              14
Conclusion


             HUD relies on grantees to report accurate, current, and complete CDBG financial
             information. The City did not accurately report CDBG financial information in
             accordance with HUD requirements. It reported CDBG financial information in
             FAMIS that did not correspond with IDIS financial information reported to HUD.
             It also failed to report CDBG program income to HUD for one project. This
             condition occurred because the City lacked (1) adequate training for both
             financial information systems, (2) adequate supervision, (3) knowledge of HUD
             regulations for financial reporting, and (4) sufficient staffing. As a result, there is
             no assurance that the City reported accurate CDBG financial information to HUD
             in accordance with HUD regulations.


Recommendations


             We recommend that the Director of the Miami Office of Community Planning
             and Development require the City to

             2A.    Reconcile FAMIS with IDIS and notify HUD of the adjustments.

             2B.    Provide training and additional supervision to staff on using FAMIS and
                    IDIS.

             2C.    Report rental and interest income of $1,092,289 as CDBG program
                    income in accordance with 24 CFR 570.504.

             2D.    Ensure that all CDBG program income is properly reported for all ongoing
                    activities.

             2E.    Compute the amount of interest generated from the rental income received
                    for the post office.




  Table of Contents


                                               15
Finding 3: The City Improperly Allocated Vehicle Expenditures to the
           CDBG Program
The City improperly allocated 100 percent of its vehicle expenditures to the CDBG program
without adequate supporting documentation demonstrating the use of the vehicles. This
condition occurred because City officials did not know that they were required to maintain
supporting documentation on miles driven among the City’s programs. They said they charged
all vehicle expenditures to the CDBG program because they received most of their funding from
this program. As a result, there is no assurance that $98,967 in vehicle expenses allocated to the
CDBG program was accurate and CDBG program related.


 Unsupported Vehicle
 Expenditures


               Regulations at 24 CFR 85.32(d)(1) require that records be maintained that include
               the percentage of federal participation in the cost and use of the property. Office of
               Management and Budget Circular A-87, attachment A, section C(1)(a), requires that
               costs be adequately documented. In addition, 24 CFR 85.20(b)(6) requires that
               accounting records be supported by such source documentation as cancelled checks,
               mileage logs, invoices, etc.

               The City Housing and Community Development Division administers the CDBG
               and other federal and state programs. It did not document mileage and other vehicle
               expenditures among programs that it administered during fiscal years 1998 through
               2006. At the time of our review, the Division used three City vehicles to monitor
               and provide technical assistance to the CDBG program and paid a monthly fee to the
               City Administrative Service Fleet department to cover fleet replacement, operation
               and maintenance, and gasoline. Between fiscal years 1998 and 2006, these fees
               amounted to $75,647. However, the City allocated the entire amount to the CDBG
               program without adequate documentation to support that the vehicles were not used
               for other federal and state programs.

               In addition, supervisors from the division received a monthly vehicle allowance for
               using their personal vehicles for various tasks associated with administering the
               CDBG and other federal and state programs. Between fiscal years 1998 and 2006,
               total allowances provided amounted to $23,320. However, the division allocated the
               entire amount to the CDBG program without adequate documentation to support
               that the vehicles were not used for other federal and state programs.

               The City did not maintain a log documenting mileage and the purpose for using the
               vehicles to determine the percentage that should have been allocated to the CDBG
               program.


 Table of Contents
                                                 16
             City officials said they did not know that they were required to maintain
             supporting documentation on miles driven among the City’s programs. The City
             informed us that it allocated 100 percent of its vehicle expenditures to the CDBG
             program because it received most of its funding from this program.

Conclusion


             Since the City administers the CDBG and other federal and state programs,
             vehicle use must be allocated among the programs. However, the City did not
             maintain adequate documentation to support that vehicle expenditures were
             properly allocated between the CDBG and other federal and state programs. As a
             result, vehicle expenditures were allocated entirely to the CDBG program. This
             increased administrative and planning costs and prevented the City from using the
             funds for other necessary costs. The City should develop and implement policies
             and procedures requiring that supporting documentation be maintained on vehicle
             use for the CDBG program. We consider $98,967 allocated to the CDBG
             program to be an unsupported cost since there is no assurance that the use of the
             vehicles was accurate and CDBG program related.

Recommendations



             We recommend that the Director of the Miami Office of Community Planning
             and Development require the City to

             3A. Reimburse the program $98,967 from nonfederal funds since there is no
                 assurance that vehicle use was CDBG program related.

             3B. Develop and implement policies and procedures requiring that supporting
                 documentation be maintained on vehicle use for the CDBG program.




Table of Contents

                                             17
                                   SCOPE AND METHODOLOGY

Our audit objective was to determine whether the City administered its CDBG program in
accordance with applicable HUD requirements. To accomplish our objectives, we

        •   Reviewed relevant HUD regulations and guidebooks,

        •   Reviewed HUD and City files and records,

        •   Interviewed HUD and City officials, and

        •   Accessed and reviewed various HUD and City automated systems.

We performed a cursory review of CDBG disbursements amounting to $6,467,570 from January
1, 2005, to December 31, 2006. We observed unusual and excessive payments related to
administrative/planning costs and selected seven specific CDBG expenditures totaling $61,390
based on high dollar amounts and unusual payments for further analysis.

Upon learning from the City that it did not keep adequate supporting documentation for vehicle
expenditures, we decided to review 100 percent or $98,967 of the vehicle expenditures to the
extent that information was available from fiscal years 1998 to 2006. We also compared
financial information reported in FAMIS to that reported in IDIS for fiscal years 2004 and 2005
to ensure accurate reporting.

We selected public service activities for review because they had the largest amount of
disbursements in the CDBG program for program year 2005. We selected two public service
activities administered by subrecipients that were provided $61,162 in CDBG funds. During our
review of public service activities, we identified concerns with activities administered by other
City departments. These concerns involved the City’s not requiring written agreements with
other City departments and not monitoring activities administered by other City departments. As
a result, we asked the City to provide us with a listing of all CDBG funds administered by other
City departments for fiscal years 2000-2006 (October 1, 2000, to May 31, 2007). We were
provided a listing of 29 public facility activities that were awarded $4,315,503 and 10 3 public
service activities that were awarded $1,346,483 in CDBG funds. During our review, we learned
that one of the ten public service activities was not administered by a City Department.
However, we included this activity since we had already reviewed it before learning that it was
not administered by a City Department. Accordingly, we expanded our testing to include
reviewing these 40 activities. During our review, we learned that the 29 public facility activities
were not administered by other City departments.


3
    One of the ten activities was already included in our survey. However, the City included this activity in the list since it
received funding in previous years.



      Table of Contents
                                                                 18
We selected land acquisitions for review because the most recent HUD monitoring review
indicated that the City had a large inventory of parcels and did not have an approved plan for
how these properties would be developed to meet national objectives. The City provided us with
a list of 76 land parcels acquired with approximately $4,022,135 in CDBG funds. City staff was
updating this list so we have no assurance that the information was complete and accurate. In
selecting land acquisitions for review, we excluded 22 parcels from a post office project that
HUD previously approved. From the remaining 54 parcels, we selected those parcels (a)
acquired by the City with the oldest purchase date and costing more than $80,000, (b) transferred
out with the oldest purchase date and costing more than $50,000, and (c) acquired by
subrecipients with the largest cost. Our selection resulted in seven parcels totaling $1,399,100.

HUD instructed the City to appropriately account for rental income as CDBG program income
on the post office project. We followed up on this matter.

We were unable to determine the reliability of computer-processed data from FAMIS.
Preliminary testing resulted in the financial records’ being incomplete. We performed additional
transaction testing and tracing to/from source documentation to determine data reliability. As a
result, we found limitations with the data because of

   • Lack of supporting documentation to reconcile CDBG financial information,
   • Lack of supporting documentation for vehicle expenditures prepared by the City, and
   • Improper entering of CDBG financial information into the system.

The results of the audit apply only to the items selected and cannot be projected to the universe
or population.

The audit generally covered the period January 1, 2005, through December 31, 2006, and we
extended the period as needed to accomplish our objective. We conducted our fieldwork from
February through May 2007 at the City offices located at 1409 Northwest 6th Street, Fort
Lauderdale, Florida.

We performed our review in accordance with generally accepted government auditing standards.




   Table of Contents

                                                19
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls
              We determined the following internal controls were relevant to our audit objective:

                •     Controls over program operations,
                •     Controls over the reliability of data,
                •     Controls over compliance with laws and regulations, and
                •     Controls over the safeguarding of assets.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.

 Significant Weaknesses


              Based on our review, we believe the following items are significant weaknesses:

                •     The City did not demonstrate compliance in meeting national objectives
                      (see finding 1).

                •     The City did not accurately report CDBG financial information to HUD
                      (see finding 2).

                •     The City improperly allocated vehicle expenditures to the CDBG program
                      (see finding 3).


    Table of Contents
                                               20
                                     APPENDIXES

Appendix A

                 SCHEDULE OF QUESTIONED COSTS
                AND FUNDS TO BE PUT TO BETTER USE


                Recommendation           Unsupported 1/        Funds to be put to
                    number                                          better use 2/

                       1A                     2,339,060
                       1B                     2,676,103
                       1D                                                722,377
                       3A                      $ 98,967                ________

                      Total                $ 5,114,130                $ 722,377



1/     Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
       or activity when we cannot determine eligibility at the time of audit. Unsupported costs
       require a decision by HUD program officials. This decision, in addition to obtaining
       supporting documentation, might involve a legal interpretation or clarification of
       departmental policies and procedures.

2/     Recommendations that funds be put to better use are estimates of amounts that could be
       used more efficiently if an Office of Inspector General (OIG) recommendation is
       implemented. This includes reductions in outlays, deobligation of funds, withdrawal of
       interest subsidy costs not incurred by implementing recommended improvements,
       avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
       which are specifically identified. For recommendation 1D, the $722,377 represents
       unspent funds that the City could effectively use if it maintains documentation that
       support these funds benefiting the intended clientele.




     Table of Contents


                                               21
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




    Table of Contents
                         22
Table of Contents

                    23
Comment 1




    Table of Contents

                        24
Table of Contents

                    25
Comment 2




   Table of Contents

                       26
Table of Contents

                    27
Comment 3




 Table of Contents

                     28
Table of Contents
                    29
Comment 1




Comment 3




Comment 2




    Table of Contents

                        30
Comment 1




Comment 2




Comment 3




  Table of Contents

                      31
Table of Contents
                    32
Table of Contents

                    33
Table of Contents
                    34
  Comment 4




  Comment 5




Table of Contents


                    35
Comment 4




Comment 4




Comment 5




Table of Contents


                    36
Comment 5




Comment 5




   Table of Contents


                       37
Comment 6




Table of Contents

                    38
Comment 6




Comment 6




Table of Contents

                    39
                             OIG Evaluation of Auditee Comments

The City generally agreed with our recommendations, except for recommendation 3A.

Comment 1     The City stated that files for City projects have been in the past maintained with
              the Engineering or other City Departments. The City also stated that the
              documentation attesting to the eligibility of the projects to meet the CDBG
              program requirements was retained in the City’s Engineering office during the
              time of the IG audit review.

              We were unable to review these files because the City did not specify which
              departments other than engineering maintained them. The City did not have a
              listing of projects and associated departments readily available. During our
              review, we were initially provided with a listing of projects. However, this listing
              was incomplete and was revised by the City several times because it included
              inaccurate information such as project and funding information. The City
              ultimately provided us with a listing that we used to review project files but this
              listing was also inaccurate. We repeatedly attempted to obtain project files, but
              the City said it was in the process of gathering the necessary information. As the
              CDBG administrator, the City needs to maintain accurate and updated
              information on the number of projects and the location of supporting
              documentation.

Comment 2     The City agreed to conduct monitoring and execute a memorandum of
              understanding with City departments. The City indicated that it has updated its
              monitoring policies and procedures to ensure effective performance and
              compliance with federal regulations to meet CDBG national objectives. The City
              will also provide HUD with an updated list of all public service activities awarded
              to City Departments. However, the City did not address that supporting
              documentation was lacking or inadequate for the 11 public service activities we
              reviewed during our audit.

Comment 3 The City provided us with documentation on the status of the seven land
          acquisitions and said that an action plan will be provided to HUD. However, we
          maintain that the City has not completed projects within a reasonable period and
          did not document whether the planned developments would meet a CDBG
          program objective. The City provided us with a draft development agreement for
          four land parcels. However, the City and developer have not yet come to a
          mutual agreement to develop the four land parcels that were acquired in 1989.
          This project also includes 31 other land parcels and the City should provide HUD
          with an action plan detailing the plan for the entire project. The City provided us
          with a request for proposal for another project, but the City still has not selected a
          developer since the acquisition of the land in 2002. The City also provided us
          with a draft Master Plan for two other land parcels. However, the plan does not
          clearly indicate the specific plan for the two projects associated with the two land
          parcels. In addition to these two projects, the subrecipient received CDBG funds


Table of Contents                              40
             for seven other projects. The City should provide HUD with a specific action
             plan for all nine projects.

             The City also stated that it is in the process of retrieving all land acquisition
             project files from a subrecipient and securing documentation for land acquired by
             the subrecipent. However, the City needs to insure that all land acquisition files
             contain sufficient documentation to fully support the basis for the purchase of the
             land.

 Comment 4   The City recognized the need for more accurate tracking of grant funds by fiscal
             year and has begun testing a new system that will result in simplifying the
             reconciliation between FAMIS and IDIS going forward. The City expects to have
             a number balanced with IDIS for the CAPER within the next 60 days and to
             notify HUD when FAMIS and IDIS are reconciled. We recognize the City’s
             efforts in adopting a new system that will properly account for HUD funds and to
             reconcile FAMIS and IDIS. The City stated that staff has attended several
             training sessions this year on the IDIS system and has requested more intense
             training from HUD. The additional training and supervision on using FAMIS and
             IDIS should enhance their knowledge and improve the administration of the
             CDBG program.

 Comment 5   The City stated that it has reported program income on the post office project
             in both FAMIS and IDIS since HUD informed them that the rental income for this
             project qualifies as program income. The City said it understood that it was not
             required to report as program income the amounts of post office rental income
             received prior to HUD’s decision. We disagree with this assessment. Regulations
             at 24 CFR 570.504 require that [all] receipts and expenditures of program income
             be recorded as part of the financial transactions of the grant program and be
             subject to all applicable requirements governing the use of CDBG funds. In
             addition, HUD’s decision clearly stated that the City needed to determine and
             report the correct amount of program income received from the rental of the post
             office project, and to inform HUD of the assessment and reporting when it is
             completed. We found that the City did not determine and report to HUD the
             correct amount of program income received from the rental of the post office
             project. According to City staff, they knew they had to report program income for
             prior years, but they did not know how to report it.

             The City stated that they have not received substantiation from the IG for
             reporting rental and interest income of $1,092,289 as CDBG program income.
             During our review, the City provided us with post office project information and
             we computed and provided information regarding $1,075,638 in rental income
             that needed to be reported as program income. We also notified the City during
             our review that the interest generated from the rental income should also be
             reported as CDBG program income. After repeated attempts, the City was unable
             to provide us with an accurate amount of interest income generated. Therefore,
             based on the limited post office project information provided by the City, we


Table of Contents                             41
              computed estimated interest income to be $16,651 and provided the information
              to the City. The City has agreed to meet and work with HUD to determine the
              appropriate amount of rental and interest income to report as CDBG program
              income generated from the post office project.

              The City also stated that with the exception of the post office program income, all
              program income has been properly reported. The City did not provide us with
              documents to support that all program income has been properly reported. As the
              CDBG administrator, the City is responsible to accurately compute and report the
              amount of program income generated.

Comment 6 The City stated that it budgets one vehicle for the CDBG program, one vehicle for
          the SHIP program, and another vehicle for the HOME program. The City
          processes expenditures from the CDBG fund, and the cost is then distributed and
          transferred to the appropriate grant. We believe that distributing total
          expenditures based on time spent on a particular program is inaccurate since each
          program has its own vehicle. Further, if the methodology used is based on a
          percentage of time spent on a program, then this method needed to be approved
          by HUD.

              The City also stated that logs and timesheets are utilized to track which projects
              are visited on a daily basis. This information is used to charge each grant
              accordingly based on the amount of time spent working on a particular project.
              During our review, the City never provided us with any logs or timesheets to
              document that vehicle expenses were CDBG program related. City officials never
              informed us of this process. Instead, City officials repeatedly said that they
              charged all vehicle expenditures to the CDBG program. During our review, City
              officials repeatedly mentioned that the only document on file was an internal
              document illustrating the standard fee paid to the City’s Administrative Service
              Fleet department.

              Along with their response, the City provided us with the log used to track time
              spent working on those projects visited. This log is not sufficient to determine
              time spent working on a project. The log does not indicate the program (CDBG,
              HOME, SHIP) associated with the site visit or the reason for using the vehicle. In
              some cases, the time associated with using the vehicle is missing or incomplete.
              As a result, this information is insufficient to charge each program accordingly
              based on the amount of time spent working on a particular project.

              In addition, the City did not address how it determined the amount of vehicle
              allowance charged to the CDBG program.

              We recognize that the City is developing policies and procedures to ensure that
              supporting documentation is maintained on vehicle use for the CDBG program.




  Table of Contents
                                              42
Appendix C
                                        CRITERIA

Federal (HUD) Regulations at 24 CFR

    • 85.20(b)(1) states: “The financial management systems of other grantees and
      subgrantees must meet the following standards: Financial reporting- Accurate, current,
      and complete disclosure of the financial results of financially assisted activities must be
      made in accordance with the financial reporting requirements of the grant or subgrant.”

    • 85.20(b)(6) requires that accounting records be supported by such source documentation as
      cancelled checks, mileage logs, invoices, etc.

    • 85.32(d)(1) states: “Property records must be maintained that include a description of the
      property, a serial number or other identification number, the source of property, who
      holds title, the acquisition date, and cost of the property, percentage of Federal
      participation in the cost of the property, the location, use and condition of the property,
      and any ultimate disposition data including the date of disposal and sale price of the
      property.”

    • 85.40(a) states that grantees are responsible for managing the day-to-day operations of
      grant- and subgrant-supported activities. Grantees must monitor grant- and subgrant-
      supported activities to assure compliance with applicable federal requirements and that
      performance goals are being achieved.

    • 570.205(a)(6) states: “Planning activities which consist of all costs of data gathering,
      studies, individual project plan (but excluding engineering, architectural and design costs
      related to a specific project), analysis, and preparation of plans and the identification of
      actions that will implement such plans, including, but not limited to: Policy—planning—
      management—capacity building activities which will enable the recipient to: Carry out
      management, coordination and monitoring of activities necessary for effective planning
      implementation, but excluding the costs necessary to implement such plans.”

    • 570.206 states that program administrative costs do not include staff and overhead costs
      directly related to carrying out activities eligible under sections 570.201 through 570.204,
      since those costs are eligible as part of such activities.

    • 570.208 states: “Additional criteria: (1) where the assisted activity is acquisition of real
      property, a preliminary determination of whether the activity addresses a national
      objective may be based on the planned use of the property after acquisition.”

    • 570.501(b) states that the grantee is responsible for determining the adequacy of
      performance under subrecipient agreements and for taking appropriate action when
      performance problems arise.


    Table of Contents                          43
• 570.503(a) requires that before disbursing any CDBG funds to a subrecipient, the
  recipient shall sign a written agreement with the subrecipient. The agreement shall
  remain in effect during any period that the subrecipient has control over CDBG funds,
  including program income.

• 570.504(a) states that the receipt and expenditure of program income as defined in
  section 570.500(a) shall be recorded as part of the financial transactions of the grant
  program. Section 570.500(a) defines program income as gross income received by the
  recipient or a subrecipient directly generated from the use of CDBG funds, which
  includes gross income from the use or rental of real or personal property acquired by the
  recipient or by a subrecipient with CDBG funds, less costs incidental to generation of the
  income and interest earned on program income pending its disposition.

• 570.506 states: “each recipient shall establish and maintain sufficient records to enable
  the Secretary to determine whether the recipient has met the requirements of this part. At
  a minimum, the following records are needed: (a) records providing a full description of
  each activity assisted (or being assisted) with CDBG funds, including its location; the
  amount of CDBG funds budgeted, obligated, and expended for the activity; and the
  provision in subpart C under which it is eligible; and (b) records demonstrating that each
  activity undertaken meets one of the criteria [national objective] set forth in 570.208.

• 570.506(b)(2) requires that for each activity determined to benefit low- and moderate-
  income families (area benefit), the grantee must provide documentation showing (1) the
  boundaries of the service area; (2) the income characteristics of families and unrelated
  individuals in the service area; and (3) if the percentage of low- and moderate-income
  persons in the service area is less than 51 percent, data showing that the area qualifies.

• 570.506(b)(3) requires that for each activity determined to benefit low- and moderate-
  income families (limited clientele), the grantee must provide documentation showing (1)
  that the activity is designed for and used by a segment of the population presumed by
  HUD to be principally low and moderate income, (2) the nature of the services and how
  they were used predominantly by low- and moderate-income persons, or (3) the size and
  annual income of the family of each person receiving the benefit.

• 570.506(b)(8) requires that for each activity determined to prevent or eliminate slums or
  blight, the grantee must address one or more of the conditions which qualified an area as
  a slum or blighted area, the boundaries of the area, and a description of the conditions
  which qualified the area at the time of its designation in sufficient detail to demonstrate
  how the area met the qualifying criteria.




Table of Contents

                                           44
HUD Handbook 1378, CHG-7, Chapter 6, Recordkeeping Requirements for Real Property
Acquisitions

   •   (c) Acquisition case file. For each property acquired and each property for which
       acquisition was initiated but not completed, a separate case file should be created to
       include the documentation to substantiate the agency’s actions and compliance with the
       Uniform Relocation Assistance and Real Property Acquisition Policies Act of 1970.
       Case files should include documents such as appraisals, eminent domain filings, court
       decisions, closing statements (HUD-1), title documentation, copy of recorded deed, claim
       forms, etc.

Office of Management and Budget Circular A-87, Cost Principles for State, Local, and Indian
Tribal Governments

   •   Attachment A, section C(1)(a) requires that the cost be necessary and reasonable for
       proper and efficient performance and administration of federal awards. As such, the
       monthly car allowance provided to its employees must be documented to determine whether
       the cost was necessary and program related, and costs must be adequately documented.

Contract between the City and a Subrecipient for Land Acquisitions

   •   The subrecipient will develop a “description of proposed redevelopment” and a “time
       schedule for development and disposition” for all real property purchased in accordance
       with this agreement within 60 days from the date of execution of this agreement. The
       “description of proposed redevelopment” and the “time schedule for development and
       disposition” will be provided to the grantee.

   •   The subrecipient will provide written reports to the City on a quarterly basis,
       summarizing the status of proposed redevelopment activities, including any changes in
       the time schedule. The term of this agreement is 60 months from the date of execution of
       the agreement. The agreement was executed on May 9, 2001.




    Table of Contents

                                              45
Appendix D

      SCHEDULE OF QUESTIONED COSTS AND FUNDS TO BE
     PUT TO BETTER USE FOR PUBLIC FACILITY ACTIVITIES

              No.     Fiscal year     Activity ID (a)       Unsupported Funds to be put
                                                               costs    to better use

                1     2000-2001              804                   $55,671                    0
                2                            864                    50,000                    0
                3                            795                     4,411                    0
                4                            798                    17,145                    0
                5     2001-2002              932                     1,214              $35,303
                6                            939                    42,084                    0
                7                            940                    12,686                    0
                8                            941                    24,500                    0
                9                            938                    28,286                    0
               10                            910                    58,294                    0
               11                            928                   222,916                    0
               12    2002-2003              1032                   123,934               49,034
               13                           1031                   195,803              104,197
               14                           1039                    23,560                    0
               15                           1040                    35,000                    0
               16    2004-2005              1208                                       150,000 4
               17    2005-2006              1304                                        83,2824
               18                           1307                                       100,0004
               19    2006-2007              1438                     1,658               98,342
               20                           1435                   162,760            ________
                                                                $1,059,922             $620,158
Notes:
   (a) The activity ID number is from IDIS.




4
 Although funds were not disbursed, we recommend that the City also maintain documentation according to 24 CFR
570.506 (b)(2) and (b)(3) that indicates the activities met the intended national objectives.


    Table of Contents                                46
Appendix E

   SCHEDULE OF QUESTIONED COSTS AND FUNDS TO BE
   PUT TO BETTER USE FOR PUBLIC SERVICE ACTIVITIES

            No.      Subrecipient      Activity ID     Unsupported Funds to be put
                                           (a)            costs    to better use

             1     City department      805, 903,          $519,827              $5,173
                                          1036,
                                       1098, 1202
                                            (b)
             2     City department         1294               9,425                  80
             3     City department     1029, 1101,          310,241              17,088
                                       1206, 1423
                                          (b) (c)
             4     City department         1387               7,855               8,345
             5     City department       1385 (c)               709              43,051
             6     City department         1386              87,883               2,117
             7     City department     810, 909 (b)         197,851                   0
             8     City department         1052              50,000                   0
             9     City department         1099              36,238                 100
            10     Non-City                1059              50,500                   0
                   subrecipient
            11     Non-City                1301              31,336               3,538
                   subrecipient
                                                           1,301,865             79,492
                                                       (c) ($22,727)        (c) $22,727
                                                        $ 1,279,138           $ 102,219

Notes:
(a) The activity ID number is from IDIS.
(b) A separate activity ID number indicates a different fiscal year funding source. For purposes
of our review, we considered the activity to be one activity.
(c) Upon learning that $22,727 ($22,550 from activity ID No. 1423 and $177 from activity ID
No. 1385) had not been drawn down according to IDIS, we considered this amount to be funds to
be put to better use rather than as an unsupported cost.




  Table of Contents

                                              47
